CERTIFICATE OF COMPLIANCE
Case No. 19•1257

Caption: Marli Brnovich, in his official capacity as
Arizona Attorney General, et al. v. Democratic
National Committee, et al.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 3,541 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the fore•
going is true and correct.
Executed on June 1, 2020.

Dean isser
Record Press, Inc.

Sworn to before me on
June 1, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01OS6101366
ualified in Kings County
C
'res Nov m~er , 2023

